No.

IN THE SUPREME COURT OF THE UNITED STATES
Rodolfo Rivera Jr.
Petitioner,
v.
Officer John Granillo CSPD #3876
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI
Appeal Case No.
20-1133, (D.C. No. 1:17-CV-01667-KMT) (D.Colo.)

Rodolfo Rivera Jr.
Pro-Se
P.O. Box 274
USAF Academy, CO 80840
(719) 243-4240
rudyriveraOO@gmail.com

Petition for Writ of Certiorari
Appendix
Table of Content
The United States Court of Appeals for the Tenth Circuit Order and
Judgment Denying Appeal from U.S. District Court, Case No. 20-1133,
(D.C. No. l:17-CV-01667-KMT)(D.Colo.) Rodolfo Rivera Jr. v. Officer
John Granillo, (February 18, 2021). Pet App A,
la — 14a
The United States Court of Appeals for the Tenth Circuit Order
Denying Petition for Rehearing (En Banc), Case No. 20-1133, (D.C. No.
l:17-CV-01667-KMT)(D.Colo.) Rodolfo Rivera Jr. v. Officer John
Granillo (April 5, 2021). Pet App B
15a - 16a
The United States District Court Order Granting Motion For
Summary Judgment, Case No. 17-cv-01667-KMT Rodolfo Rivera Jr. v.
Officer John Granillo
(March 13, 2020). (2:21 PM MDT), Pet App C
17a - 26a
The United States Magistrate Judge Order Final Judgment, Granting
Summary Judgment. Case No. 17-cv-01667-KMT Rodolfo Rivera Jr. v.
Officer John Granillo
(March 13, 2020). (4:40 PM MDT) Pet App D
27a - 29a
The United States Court of Appeals for the Tenth Circuit Order
Granting Extension to file Petition for Rehearing (En Banc) Case No. 01133, (D.C. No. l:17-CV-01667-KMT)(D.Colo.) Rodolfo Rivera Jr. v.
Officer John Granillo
(March 3 2021). Pet App E
30a-31a
The United States Court of Appeals for the Tenth Circuit Order
Granting Motion for Extension of Time to Filed Reply Brief, Case No.
20-1133, (D.C. No. 1:17-CV-01667-KMT) (D.Colo.) Rodolfo Rivera Jr. v.
Officer John Granillo
(July 10„ 2020). Pet App F.
32a - 33a
The United States Court of Appeals for the Tenth Circuit Order Denied
Stay- Bin of Cost Case No. 20-1133, (D.C. No. 1:17-CV-01667KMT)(D.Colo.) Rodolfo Rivera Jr. v. Officer John Granillo
(July, 24, 2021). Pet App. G
34a — 36a

la
Appendix A
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

Case No. 20-1133, (D.C. No. l:17-CV-01667-KMT)(D.Colo.)
ORDER AND JUDGMENT
DENYING
APPEAL FROM
THE UNITED STATES DISCTIRCT COURT
(February 18, 2021)

Before
Honorable MATHESON, BALFOCK, and CARSON, Cir Judges

Appellate Case: 20-1133

Document: 010J10481601

Date Filed: 02/18/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

February 18, 2021
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,
v.
OFFICER JOPIN GRANILLO,
CSPD 3876,

No. 20-1133
(D.C. No. 1:17-CV-01667-KMT)
(D. Colo.)

Defendant - Appellee.

ORDER AND JUDGMENT*
Before MATHESON, BALDOCK, and CARSON, Circuit Judges.

Proceeding under 42 U.S.C. § 1983, Rodolfo Rivera, Jr., brought claims
against Colorado Springs police officer John Granillo for malicious prosecution and
excessive force. The district court resolved both claims in Granillo’s favor.
Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.

Aftei examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed R Add P 32 1
and 10th Cir. R. 32.1.
PP'

Appellate Case: 20-1133

I.

Document: 010^10481601

Date Filed: 02/18/2021

Page: 2

BACKGROUND & PROCEDURAL HISTORY
Granillo arrested Rivera on suspicion of assault and harassment. After

booking Rivera in jail, Granillo filled out a probable cause affidavit in support of the
arrest, which a local judge reviewed and approved. Rivera spent five days in pretrial
detention. He eventually went to trial and the jury acquitted.
Following acquittal, Rivera filed this civil suit, alleging that Granillo lacked
probable cause to arrest him (malicious prosecution) and failed to heed his
complaints that the handcuffs were painfully tight (excessive force). The district
court found that probable cause to arrest was evident as a matter of law on the
documents Rivera attached to the complaint, and so dismissed the malicious
prosecution claim under Fed. R. Civ. P. 12(b)(6).' The district court allowed the
excessive force claim to go to discovery.
Following discovery, Granillo moved for summary judgment, asserting both
non -liability and qualified immunity. The district court found that the undisputed
facts showed Granillo did not wait too long after Rivera’s complaints of pain before
removing the handcuffs. The court accordingly granted Granillo’s motion and
entered final judgment against Rivera.
We provide additional details as they become relevant to the various issues
discussed below.

1 The district court also dismissed a claim for gender discrimination. Rivera
does not challenge this dismissal on appeal.
2

Appellate Case: 20-1133

II.

Document: 010^10481601

Date Filed: 02/18/2021

Page: 3

ANALYSIS
Rivera challenges the district court’s dismissal of his malicious prosecution

claim and its grant of summary judgment on his excessive force claim. We review
both challenges de novo. See Schneider v. City of Grand Junction Police Dep’t,
717 F.3d 760, 766 (10th Cir. 2013) (summary judgment); Janke v. Price, 43 F.3d
1390, 1391 (10th Cir. 1994) (dismissal for failure to state a claim).
A.

Malicious Prosecution

The government violates a person’s Fourth Amendment right to be free from
unreasonable seizures when “legal process result[s] in pretrial detention unsupported
by probable cause.” Manuel v. City ofJoliet, 137 S. Ct. 911, 919 (2017). Our circuit
refers to this claim as “malicious prosecution,” and holds that the plaintiff must
prove, among other things, that “no probable cause supported the original arrest,
continued confinement, or prosecution.” Sanchez v. Hartley, 810 F.3d 750, 754 n. l
(10th Cir. 2016) (internal quotation marks omitted).
The legal process at issue here was the local judge’s approval of Granillo’s
probable cause affidavit, thus requiring Rivera to remain in detention until he could
post bond. Although that judge found probable cause, Rivera can nonetheless prove
the no-probable-cause element of his claim by demonstrating that Granillo misled the
judge into finding probable cause through deliberately false statements or material
omissions. See Taylor v. Meacham, 82 F.3d 1556, 1562 (10th Cir. 1996). When
faced with such a claim, the reviewing court’s task is to reconstruct the affidavit as it

3

Appellate Case: 20-1133

Document: 010^10481601

Date Filed: 02/18/2021

Page: 4

should have been (omitting falsities and inserting material omissions) and then
decide whether the affidavit still shows probable cause. Id.
In this light, we first summarize the affidavit. We then turn to Rivera’s claims
that Granillo omitted or misrepresented material facts.
1.

The Probable Cause Affidavit

The affidavit tells substantially the following story. On the night of October
30, 2015, Granillo was dispatched to a particular residence based on “a reported
domestic disturbance.” R. vol. 1 at 26. There he met a woman named Janet Miller.
Miller said that she and Rivera—whom she described as her boyfriend__got into a
prolonged argument the night before (i.e., October 29). During the argument, Rivera
“kept repeating the statement, ‘You’re not answering the question. 5 55 Id. Eventually
Riveia punched [Miller] with a closed fist using his right hand striking her in the
left upper rib area below her breasts.” Id. “(T]his caused her pain as she shouted out
in pain[,] ‘Ow.’” Id. Sometime after this, they went to sleep. “Miller stated.she did
not call police during this incident and did not know why . . . .” Id. at 27.
According to Miller, the fight briefly resumed the next morning and Rivera
stated, “I didn’t hit you, I just touched you, do you want me to really hit you so you
can compare them[?]” Id. at 26 (internal quotation marks omitted). Then, when
Rivera returned home that evening, “she asked him to leave.” Id. at 27. Rivera
“immediately went to his bedroom stating he wanted to be left alone to go to sleep.”
Id. Millei again asked Rivera to leave, and Rivera again stated he wanted to be left

4

Appellate Case: 20-1133

Document: 010^10481601

Date Filed: 02/18/2021

Page: 5

alone, after which he closed the door to the bedroom. That’s when Miller called 911
leading to Granillo’s dispatch.
Granillo “did not notice any marks on Ms. Miller’s body in the area she
described she was hit, but photographed it.” Id. He then spoke with Miller’s adult
son, who said he was in his own bedroom the previous night, across the hall from
where the fight took place. “[H]e could hear Mr. Rivera repeating the same question
over and over as if trying to get an answer that he wanted.” Id. He also “heard his
mother scream out' ‘Ow’ as if some type of physical altercation had occurred.” Id.
Finally, Granillo spoke with Rivera, whose story about what happened since he
returned home that night was essentially the same as Miller’s (i.e., she asked him to
leave but he just wanted to go to bed). As for the previous night’s fight, Rivera
“stated there was no incident and there was nothing to be talked about.” Id.
Ultimately, Granillo decided he had probable cause to arrest for third-degree
assault and harassment.2
2.

Alleged Material Omissions

Rivera alleges that Granillo was aware of additional facts that he should have
included in the warrant affidavit, specifically:
At around the same time Miller called 911, Rivera also called 911.
2 Colorado defines third-degree assault as “knowingly or recklessly causing]
bodily injury to another person,” Colo. Rev. Stat. § 18-3-204(l)(a), where bodily
injury means, among other things, “physical pain,” id. § 18-1-901 (3)(c). Colorado
defines harassment, in this context, as “[s]trik[ing], shov[ingj, kicking], or otherwise
touching] a person or subjecting] him to physical contact,” if done “with intent to
harass, annoy, or alarm another person.” Id. § 18-9-111(1 )(a).
5

Appellate Case: 20-1133

Document: 010^10481601

Date Filed; 02/18/2021

Page: 6

Although he “did not want the police to come,” he nonetheless reported
that Miller was “barging [into his] room and saying she wanted him
out.” R. vol. 1 at 35.
Rivera had been “generally cooperative” on the night of October 30,
according to Granillo’s testimony during Rivera’s criminal trial. Id.
at 68.
These omissions relate entirely to the night of October 30. They are irrelevant
to whether Granillo had probable cause to arrest Rivera for actions allegedly taken
the previous night (October 29). Thus, they do not affect the probable cause
analysis.3
Rivera further argues that Granillo failed to emphasize Miller’s primary
motive: “she called the police so she could have [him] removed from the residence.”
Id. at 36. This is important, says Rivera, because Miller supposedly said nothing
about the previous night’s assault until after Granillo told Miller that Rivera “had
legal standing to be at the residence” (/'.<?., the police could not remove him as a
trespasser). Aplt. Opening Br. at 5, Thus, Miller had a reason to fabricate the
assault, as an alternate means of convincing the police to remove Rivera, yet Granillo
never pointed this out to the reviewing judge.

3 Rivera also claims that the warrant affidavit falsely “states that the incident
took place on 30 Oct 15.” Aplt. Opening Br. at 23. But the warrant affidavit
consistently distinguishes between the alleged October 29 fight culminating in a
punch to Miller’s ribs and the October 30 verbal disagreement that prompted Miller
to call 911. See R. vol. 1 at 26-27.
6

Appellate Case: 20-1133

Document: 010^10481601

Date Filed: 02/18/2021

Page: 7

This argument fails for lack of evidence. To be sure, Granillo’s police report,
but not his affidavit, recounts that he “advised [Miller] that [he] was unable to have
Mr. Rivera removed from the home because he had been at the residence for
approximately 7-9 years,” and he “explained to [her] about the protection order and
eviction processes.” R. vol. 1 at 38. However, the police report places this event as
the last thing Granillo says to Miller—well after she describes the assault, after
Granillo speaks with Miller’s son, and after Granillo contacts Rivera and places him
in the police cruiser. See id. at 35-38. The only evidence Rivera cites to challenge
this timeline is a contentious deposition exchange in which Rivera elicits Granillo’s
agreement that, according to the police report, Miller first described the previous
night’s event as a “verbal altercation,” with no mention of physical contact. See R.
vol. 4 at 58-62 (quoting R. vol. 1 at 35). Whatever the value of this concession, the
next paragraph of Granillo’s police report contains Miller’s account of the punch to
her ribs. See R. vol. 1 at 36. And, again, Granillo says nothing about Rivera’s right
to remain in the residence until well after this. Id. at 38. So Rivera has no evidence
that the timeline is any different than what Granillo’s police report reflects.
Even if Rivera had evidence of his alternate timeline, Granillo would still have
possessed probable cause. Granillo spoke with Miller’s son who claimed to have
overheard the argument. He generally corroborated her story, including hearing an
exclamation of pain consistent with being struck. Rivera nowhere argues that
Granillo had reason to doubt the son’s account.

7

Appellate Case; 20-1133

Document: 010110481601

9a

Date Filed; 02/18/2021

Page: 8

“[PJrobable cause is a mailer of probabilities and common sense conclusions,
not certainties.” United States v. Martin, 613 F.3d 1295, 1302 (10th Cir. 2010)
(brackets in original; internal quotation marks omitted). And Granillo needed only
“arguable probable cause,” given his assertion of qualified immunity. Stonecipher v,
Valles, 759 F.3d 1134, 1141 (10th Cir. 2014) (internal quotation marks omitted). Fie
had at least that much, even if Miller never told her story of the assault until after he
told her he could not remove Rivera for trespassing.
In sum, Rivera fails to point us to any falsity within or material omission from
the warrant affidavit that would have vitiated probable cause. The district court
correctly dismissed Rivera’s malicious prosecution claim because it was clear on the
face of the pleadings that probable cause existed, thus defeating a necessary element
of tire claim.
B.

Excessive Force

“In some circumstances, unduly tight handcuffing can constitute excessive
force where a plaintiff alleges some actual injury from the handcuffing and alleges
that an officer ignored a plaintiffs timely complaints (or was otherwise made aware)
that the handcuffs were too tight.” Cortez v. McCauley, 478 F.3d 1108, 1129
(10th Cir. 2007) (en banc).
In this regard, the timeline is important. Granillo arrived at the residence
shared by Rivera and Miller, heard Miller’s accusations and Rivera’s response, and
Granillo’s sergeant directed him to cuff Rivera and place him in the back of the
police cruiser. Granillo carried out this directive at 11:43 PM. He checked the
8

Appellate Case: 20-1133

Document: 01(JJ10481601

Date Filed: 02/18/2021

Page: 9

handcuffs for tightness by ensuring there was a finger’s width of space between the
handcuffs and Rivera’s wrists. He then went back inside the residence to continue
his intei views, while Rivera sat by himself in the police cruiser.4 This is when
Rivera began to feel pain from the handcuffs.
At 12:15 AM, Granillo returned to the police cruiser and announced that
Rivera was under arrest. Around this time, Rivera complained about the handcuff
pain, but Granillo chose to drive Rivera to the nearest substation before removing the
cuffs. The paities dispute the amount of time it took to reach the substation
—we
address below whether Rivera raises a genuine dispute. Regardless, not long after
ailiving at the substation, Granillo removed the handcuffs.5
The distiict court focused on the length of time between Rivera’s first
complaint to Granillo and the moment Granillo removed the handcuffs, Rivera
argues, however, that the court must look at the entire time he was in handcuffs, and

4 Granillo says “there was a smal l amount of water in the deep part of the seat”
in which he placed Rivera. R. vol. 1 at 38. Rivera claimed below (and continues to
insist on appeal) that this liquid was urine, not water, but he has pointed us to no
evidence that the liquid was urine, nor even explained in argument why he believes
as much. We therefore disregard the allegation.
In the distiict court, Rivera claimed that Granillo—-just before removing the
handcuffs—unnecessarily pulled Rivera’s cuffed hands upward, above shoulder
level, causing great pain. The district court’s summary judgment order does not
addiess this accusation. Although Rivera mentions this incident in his opening brief
see Aplt. Opening Br. at 4, 11, he fails to present any argument for reversal based on
it. In particular, he fails to demonstrate that the summary judgment record contains
enough evidence to establish a genuine dispute of material fact. “Arguments
inadequately briefed in the opening brief,” like this one, “are waived ” Adler v. WalMart Stores, Inc., 144 F.3d 664, 679 (10th Cir. 1998).
9

Appellate Case: 20-1133

Document: 010^10481601

Date Filed: 02/18/2021

Page: 10

particularly account for the fact that Granillo checked the handcuffs for tightness in a
manner supposedly contrary to his own expert’s recommendations. If Rivera means
to say that improper handcuffing technique can substitute for being “made aware . . .
that the handcuffs were too tight,” Cortez, 478 F.3d at 1129, he makes no attempt to
satisfy his qualified immunity burden of showing that this was clearly established law
at the time Granillo acted, see Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011)
(“Qualified immunity shields federal and state officials from money damages unless
a plaintiff pleads facts showing (1) that the official violated a statutory or
constitutional right, and (2) that the right was clearly established at the time of the
challenged conduct.” (internal quotation marks omitted)). In any event, Granillo’s
expert did not opine that Granillo used an improper tightness-checking technique.
The expert said that he could not tell from Gfanillo’s description of the event whether
Granillo used proper technique. See R. vol. 4 at 212, <[j 3. Rivera therefore fails to
show an entitlement to a trial on this question.
The remaining question is whether Granillo “ignored [Rivera’s] timely
complaints . . . that the handcuffs were too tight.” Cortez, 478 F.3d at 1129. The
answer turns on four sub-questions.
First, when did Rivera complain to Granillo? The district court found that he
“did not complain . . . until [Granillo] got back into [the] patrol car and put the car
into gear to go to the . . . substation.” R. vol. 4 at 309. In the district court, Rivera
suggested that it happened earlier, but Rivera now says he “concurs with” this

10

Appellate Case: 20-1133

Document: 010^0481601

Date Filed: 02/18/2021

Page: 11

finding. Aplt. Reply Br. at 3-4. The district court therefore correctly identified the
starting point of the analysis.
Second, with what words, or in what manner, did Rivera complain? In his
summary judgment motion, Granillo asserted that Rivera “complained of wrist pain,”
and “made his complaint in a conversational manner.” R. vol. 2 at 5, f 12.6 Rivera
did not contest this assertion. See R. vol. 4 at 12, f 12. Thus, the district court
properly found that Granillo’s story was undisputed on this point.
Third, what did Granillo do after Rivera complained? Rivera says that
Granillo “started going fast when I complained to him.” R. vol. 2 at 42. Although
there does not appear to be any dispute about this, we will assume it is the version of
the facts most favorable to Rivera. We further note that Granillo explained his
decision to keep going, rather to stop and re-check the cuffs, as a question of safety,
given that it was nighttime and he was unassisted. Rivera offered no evidence or
argument that these were improper considerations.
Fourth, how long did the trip to the substation take? In the district court,
Granillo said twelve minutes. Rivera responded that “the trip took more than 12
minutes,” R. vol. 4 at 11, but went on to argue and cite evidence concerning the total

6 Rivera asserts that Granillo’s summary judgment affidavit was a “sham
affidavit” as compared to his testimony at Rivera’s criminal trial, see Aplt. Opening
Br. at 25-26, but Rivera never argued as much to the district court. “A federal
appellate court, as a general rule, will not reverse a judgment on the basis of issues
not presented below.” Petrini v. Howard, 918 F.2d 1482, 1483 n.4 (10th Cir. 1990)
(per curiam). Rivera gives us no reason to depart from this general rule, so we do not
address his sham affidavit argument.
11

Appellate Case: 20-1133

Document: 010y £481601

Date Filed: 02/18/2021

Page: 12

amount of time he spent in handcuffs. Rivera never supported his assertion that the
drive to the substation took longer than twelve minutes. See Fed. R. Civ. P.
56(c)(1)(A) (“A party asserting that a fact cannot be or is genuinely disputed must
support the assertion by ., . citing to particular parts of materials in the record
. . . .”). The district court therefore did not err in finding this portion of Granillo’s
account undisputed.
On the undisputed facts, or those taken in the light most favorable to Rivera,
we agree with the district court that Granillo did not “ignore[] a . . . complaintf] . . .
that the handcuffs were too tight.” Cortez, 478 F.3d at 1129. Under the
circumstances, moreover, it was reasonable as a matter of law for Granillo to wait the
relatively short amount of time it would take to get to the substation—an amount of
time compressed by Granillo’s choice to drive faster—before removing the cuffs.
Summary judgment for Granillo was therefore appropriate.7
C.

Attorneys’ Fees

Rivera argues that the district court erroneously awarded Granillo his
attorneys’ fees. We find no such award in the record. Rather, the district court

7 Although Rivera focuses on unduly tight handcuffing, he occasionally inserts
language seemingly asserting that handcuffing alone amounted to excessive force
under the circumstances. See Aplt. Opening Br. at 17, 19-20; Aplt. Reply Br. at 1.011. If Rivera indeed means to argue as much, he fails in his qualified immunity
burden to identify case law clearly establishing that handcuffing can be
constitutionally excessive even when not painful. Cf Mglej v. Gardner, 974 F.3d
1151, 1166 (10th Cir. 2020) (“Mglej has failed to identify any relevant case law
clearly establishing that Deputy Gardner violated the Fourth Amendment just by
handcuffing [him]. ... In fact, relevant case law generally suggests the contrary.”).
12

Appellate Case: 20-1133

Document: 010110481601

14a

Date Filed: 02/18/2021

Page: 13

awarded Granillo his costs. But Rivera’s attorneys’ fees argument is not a misnamed
attack on costs. See Aplt. Opening Br. at 28 (invoking the “American Rule” and
Lodestar approach”). Because the district court made no fee award, this argument is
moot.
III.

CONCLUSION
We affirm the district court’s judgment.
Entered for the Court

Joel M. Carson III
Circuit Judge

13

15a
Appendix B
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

Case No. 20-1133, (DC. No. l:17-CV-01667-KMT)(D.Colo.)
ORDER
DENYING
PETITION FOR REHEARING (En Banc)
(April 5, 2021)

Before
Honorable MATHESON, BALFOCK, and CARSON, Cir Judges

16a

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 5, 2021
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,
v.

No. 20-1133
. (D.C. No. 1:17-CV-01667-KMT)
(D. Colo.)

OFFICER JOHN GRANILLO, CSPD
3876,
Defendant - Appellee.

ORDER

Before MATBESON, BALDOCK, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

17a
Appendix C
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
ORDER
GRANTING
MOTION FOR SUMMARY JUDGMENT
(March 13, 2020)
(2:21 PM MDT)

Jeffery P. Colwell, Clerk s/K. Senamontry, Deputy Clerk

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 1 of 9
18a

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Magistrate Judge Kathleen M. Tafoya
Civil Action No. 17-cv-01667-KMT
RODOLFO RIVERA, JR.,
Plaintiff,
v.
OFFICER JOHN GRANILLO/CSPD 3876.
Defendant.

ORDER

This matter is before the court on Defendant’s “Motion for Summary Judgment” (Doc.
No. 52 [Mot.], filed March 15, 2019). Plaintiff responded, and Defendant replied. (Doc. No. 55
[Resp.], filed April 5, 2019; Doc. No. 56 [Reply], filed April 19, 2019.)
SUMMARY OF CASE
Plaintiff, proceeding pro se, filed his complaint on or about July 10, 2017, alleging
Defendant GranilJo violated his constitutional rights by arresting him without probable cause.
arresting him on the basis of gender, and injuring him with unduly tight handcuffs. (Doc. No. I
[Compl.].) On April 24, 2018, this court dismissed Plaintiffs lack of probable cause claim and
his gender discrimination claim. (Doc. No. 24.) Defendant now seeks summary judgment on the
remairtng excessive force claim. (Mot.)

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 2 of 9
19a

UNDISPUTED FACTS
1.

On October 30, 2015, Defendant Officer Granillo and Sergeant Fred Walker

lesponded to a call fot service at 5740 Pemberton Way* (Compi., Ex. 3 at 11.) The complaining
witness alleged Plaintiff had struck her the night prior, and she wanted Officers to remove
Plaintiff from her home. {Id.)
2.

Sergeant Walker instructed Defendant to handcuff Plaintiff and detain him in

Defendant’s patrol car. {Id. at 18.)
3.

After placing Plaintiff in handcuffs, Defendant checked them for tightness by

ensuring there was a finger’s width of space between each handcuff and each of Plaintiff s
wi ists. (Mot., Ex. B, Aff. of Officer John Granillo,

5; Compl., Ex. 3 at 19.) Defendant then

double-locked the handcuffs, which prevents the handcuffs from becoming tighter. (Mot., Ex. B.
1 5; Ex. C, Van Oqyen Report, at 4. 'f 18.)
4.

When Defendant applied the handcuffs, Plaintiff did not complain. (Mot., Ex. A,

Aff. of Sergeant Fred Walker, f 6.)
5,
B,

Defendant escorted Plaintiff to his patrol car and returned to the house. (Mot., Ex.

6.) Sergeant Walker remained outside in his own vehicle, which was not equipped to

transport suspects, to watch Plaintiff. (Mot, Ex. A., ffl 7-8.) After fifteen minutes, Sergeant
Walker checked on Plaintiff and asked how he was doing, {Id. f 9.) Plaintiff did not complain
about the handcuffs at that time. {Id.)
6.

The handcuffs did not start hurting Plaintiff until he leaned back in his seat and

readjusted his hands and then began struggling with the handcuffs. (Mot., Ex. D at 54, II. 1-12;
at 68, II. 2-22.)

---- 2

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20

USDC Colorado Page 3 of 9

20a

7.

At approximately 12:15 am on October 31, 2015, Defendant returned to his patrol

car to transport Plaintiff to the Falcon Substation. (Mot., Ex. B, f 11.; Resp., Ex. E at 3.) The
trip to the police station took twelve minutes. (Mot., Ex. B, f 11.) Plaintiff described the trip as
"pretty quick.” (Mot., Ex. D, II. 7-8.)
8.

During the trip to the substation, Plaintiff, for the first time, complained of wrist

pain. (Mot., Ex. B, t 8; Ex. D at 60, H. 2-16.) Plaintiff made his complaint in a conversational
manner. (Ex. B, f 8.)
9.

After arriving at the Falcon Substation, .Defendant again checked the handcuffs

foi tightness and found again that they had not gotten any tighter. (Mot., Ex. B,

12: Compl..

Ex. 3 at 19.) Defendant then removed the handcuffs. (Ex. B, <§ 12.)
STANDARD OF REVIEW
Summary judgment is appropriate if “the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to judgment as a matter of law.” Fed, R. Civ. P.
56(a). The moving party' bears the initial burden of showing an absence of evidence to support
the nonmoving party’s case. Celotex Corp. v. Calrett, 477 U.S. 317, 325 (1986). “Once the
moving party meets this burden, the burden shifts to the nonmoving party to demonstrate a
genuine issue for trial on a material matter.” Concrete Works, Inc. v. City & County of Denver,
36 F.3d 1513, 1518 (10th Cir. 1994) (citing Celotex, All U.S. at 325). The nonmoving party
may not rest solely on the allegations in the pleadings, but must instead designate “specific facts
showing that there is a genuine issue for trial.” Celotex, 477 U.S. at 324; see also Fed. R. Civ. P.
56(c). A disputed fact is “material” if “under the substantive law it is essential to the proper
disposition of the claim.” Adler v. Wal-Mart Stores, Inc., 144 F.3d 664, 670 (10th Cir. 1998)

•’

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 4 of 9
21a

(citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). A dispute is “genuine” if the
evidence is such that it might lead a reasonable jury to return a verdict for the nonmoving party.
Thomas v. Metropolitan Life Ins. Co., 631 F.3d 1153, 1160 (10th Cir. 2011) (citing Anderson,
477 U.S. at 248).
When ruling on amotion for summary judgment, a court may consider only admissible
evidence. SeeJohnsonv. Weld County, Colo., 594 F.3d 1202, 1209-10 (10th Cir. 2010). The
factual record and reasonable inferences therefrom are viewed in the light most favorable to the
party opposing summary judgment. Concrete Works, 36 F.3d at 1517. The following axioms
have a bearing on summary judgment disposition—i.e., (1) that “[t]he evidence of the non­
movant is to be believed, and all justifiable inferences are to be drawn in his favor.” Anderson v.
Liberty Lobby, Inc., All U.S. 242, 255 (1986); (2) “the defendant should seldom if ever be
gianted summary judgment where his state of mind is at issue and the jury might disbelieve him
or his witnesses as to this issue” id. at 256; and (3) “the plaintiff, to survive the defendant’s
motion, need only present evidence from which a jury might return a verdict in his favor.” Id. at
257.
Moreover, because Plaintiff is proceeding/W5 .re, the court, “review[s] his pleadings and
other papers liberally and hold[s] them to a less stringent standard than those drafted by
attorneys.” Trackwell v. United Slates, 472 F.3d 1242, 1243 (10th Cir. 2007) (citations omitted);
see also Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (holding allegations of a pro se
complaint “to less stringent standards than formal pleadings drafted by lawyers”). At the
summary judgment stage of litigation, a plaintiffs version of the facts must find support in the
record. Thomson v. Salt Lake Cnty., 584 F.3d 1304, 1312 (10th Cir. 2009). “When opposing

\

•

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 5 of 9
22a

parties tell two different stories, one of which is blatantly contradicted by the record, so that no
reasonable jury could believe it, a court should not adopt that version of the facts for purposes of
ruling on a motion for summary judgment.” Scoltv. Harris, 550 U.S. 372, 380 (2007);
Thomson, 584 F.3d at 1312.
ANALYSIS
A.

Qualified Immunity
Defendant argues he is entitled to qualified immunity on Plaintiffs excessive force claim

asserted against him in his individual capacity. The doctrine of qualified immunity shields
government officials from individual liability for civil damages “insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). Qualified immunity is
“an immunity from suit rather than a mere defense to liability; and like an absolute immunity7, it
is effectively lost if a case is erroneously permitted to go to trial.” Saucier v. Katz, 533 U.S. 194.
121 (2001).
In resolving a motion . . . based on qualified immunity, a court must consider whether
the facts that a plaintiff has alleged ... make out a violation of a constitutional right, and whether
the i ight at issue was clearly established at the time of defendant’s alleged misconduct.”
Leverington v. City of Colo. Springs, 643 F.3d 719, 732 (10th Cir. 2011) (quoting Pearson, 555
U.S. at 232) (internal quotations omitted). Once a defendant invokes qualified immunity, the
burden to prove both parts of this test rests with the plaintiff, and the court must grant the
defendant qualified immunity if the plaintiff fails to satisfy either part. Dodd v. Richardson. 614
F.3d 1185, 1191 (10th Cir. 2010). Where no constitutional right has been violated “no further

(

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 6 of 9
23a

inquiry is necessary and the defendant is entitled to qualified immunity.” Hesse v. Town of
Jackson, Wyo.,5A\ F.3d 1240, 1244 (10th Cir. 2008) (quotations omitted).
1. Excessive Force Claim
Defendant argues he is entitled to summary judgment on Plaintiffs excessive force
claim.
“The Fourth Amendment forbids unreasonable seizures, including the use of excessive
force in making an arrest.” Casey v. City ofFederal Heights, 509 F.3d

1278, 1281 (10th Cir.

2007). Claims of excessive force are analyzed under the objective reasonableness standard of
the Fourth Amendment. See, e.g., Graham v. Connor, 490 U.S.

386, 395 (1989); Thomson v.

Salt Lake Cty, 584 F.3d 1304, 1313 (10th Cir. 2009). This standard “requires inquiry into the
factual circumstances of every case; relevant factors include the crime’s severity, the potential
threat posed by the suspect to the officer’s and others’ safety, and the suspect’s

attempts to resist

or evade arrest.” Medina v. Cram, 252 F.3d 1124, 1131 (10th Cir. 2001) (citing Graham, 490
U.S. at 396). A “court assesses the reasonableness of an officer’s conduct from the perspective
of a reasonable officer on the scene, acknowledging that the officer may be forced to make splitsecond judgments in certain difficult circumstances.” Marquez v. City ofAlbuquerque, 399 F.3d
1216, 1220 (10th Cir. 2005) (quoting Olsen: v. Layton Hills Mall, 312 F.3d 1304, 1314 (10th Cir.
2002) (further citation omitted)). The objectively unreasonable test considers the totality of the
circumstances “from the perspective of a reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Havens v. Johnson, 783 F.3d 776, 781-82 (10th Cir. 2015) (quoting
Estate ofLarsen ex rel. Sturdivan v. Murr, 511 F.3d 1255, 1259 (1 0th Cir. 2008) (internal
quotation marks omitted)).

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 7 of 9
24a

[I]n nearly every situation where an arrest is authorized,... handcuffing is
appropriate!;.]” Fishery. City ofLas Cruces, 584 F.3d 888, 896 (10th Cir. 2009).

Defendant

argues, and the court agrees, that there is no evidence to suggest that Defendant applied the
handcuffs incorrectly or in an unreasonable manner. Rather, the undisputed facts show that
Plaintiff did not complain when Defendant applied the handcuffs or up to approximately 15
minutes later, when Sergeant Walker checked on Plaintiff. (Mot., Ex. A, f| 6, 9.) Nevertheless,
the question in this case is “whether the failure to adjust [Plaintiffs] handcuffs

. constitutes

excessive force. ’ Fisher, 584 F.3d at 902 (emphasis added).
[U]nduly tight handcuffing can constitute excessive force where a plaintiff alleges some
actual injury from the handcuffing and alleges that an officer ignored a plaintiff s timely
complaints (or was otherwise made aware) that the handcuffs were too tight.” Cortez v.
McCauley, 478 F.3d 1108, 1129 (10th Cir. 2007). The undisputed evidence shows that the
handcuffs did not start hurting Plaintiff until he leaned back in his seat and readjusted his hands
and then began struggling with the handcuffs. (Mot., Ex. D at 54, II. ]-12; at 68, 11. 2-22.)
Plaintiff did not complain about the handcuffs being too tight or hurting him until Defendant got
back into his patrol car and put the car into gear to go to the Falcon Creek substation. (Id. at 60,
II. 2-16.) However, according to Plaintiffs own testimony, Defendant did not ignore Plaintiffs
complaints about the handcuffs. Rather, Plaintiff testified that he and Defendant got to the police
station “ pietty quick, because [Defendant] sped up. He started going fast when I complained to
him.” (Mot., Ex. D, 11. 7-8.) Moreover, the trip to the police station took only twelve minutes.

t ;

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 8 of 9
25a

and there is no evidence to suggest that PJaintiff complained about the handcuffs more than once
on the way to the police station.' (Mot., Ex. A, ^ 15; Ex. B, % 11.)
[T]he Tenth Circuit has held that no claim for excessive force existed even though
a plaintiff was handcuffed behind the back and remained handcuffed for 20
minutes, complained repeatedly that the handcuffs were too tight and of pain, and
suffered damage to her shoulder and her radial nerve at the wrist which prevented
her from pursuing her professional and recreational piano playing.
Kisskalt v. Fowler, No. 13-CV-01113-WYD-ICLM, 2014 WL 6617136, at *8 (D. Colo. Nov.
21,2014) (citing Morreale v. City of Cripple Creek, No. 96-1220, 1997 WL 290976, at * 1 (10th
Cir. 1997)). See also, Lewis v. Sandoval, 428 F. App'x 808, 812 (10th Cir. 2011) (Finding in part
that an officer did not use excessive force by waiting ten minutes to remove a pair of handcuffs
while at the police station after checking the handcuffs for fit, even though the plaintiff
complained of wrist pain). In each of these cases, the courts determined the defendant officers
were entitled to qualified immunity because they took steps to ensure the handcuffs were not too
tight after applying them. Kisskalt, WL 6617136, at *8; Morreale, 113 F.3d at *5; Lewis 428 F.
App’x at 812.
In this case, it is undisputed that after Defendant placed Plaintiff in handcuffs, Defendant
checked the handcuffs for tightness by ensuring there was a finger’s width of space between each
handcuff and each of Plaintiff s wrists. (Mot., Ex. B, % 5; CpI., Ex. 3 at 19.) Defendant then
double-locked the handcuffs, id., which prevents them from becoming tighter.2 (Mol., Ex. B, f

Plaintiff disputes this fact and states that he was placed in handcuffs at 2343 hours and left for
the police station at 0015. (See Resp. at 9,1 11.) However, because it is undisputed that Plaintiff
did not complain about the handcuffs until Defendant got into his patrol car and left for the
police station, it is irrelevant that Plaintiff was in handcuffs for approximately thirty-two minutes
before that time.
” Plaintiff states that Defendant “did not properly check [the] handcuffs for tightness” and cites a
portion of Defendant’s deposition in support of this contention. (Resp. at 7, ]] 4.) However,
-S.

'

.1

Case l:17-cv-01667-KMT Document 59 Filed 03/13/20 USDC Colorado Page 9 of 9
26a

5.; Ex. C, f 18.) After arriving at the Falcon Substation, Defendant Granillo again checked the
handcuffs for tightness and found again that they had not gotten aiiy tighter. (Mot., Ex. B, f 12;
Compl., Ex. 3 at 19.) Defendant then removed the handcuffs. (Mot., Ex. B,

12.)

Accordingly, Plaintiff has failed to satisfy his burden of “demonstrating] a genuine issue
for trial” on his excessive force claim. Concrete Works, Inc., 36 F.3d at 1518. The court need
not reach Defendant’s remaining arguments.
WHEREFORE, it is
ORDERED that Defendant’s “Motion for Summary Judgment” (Doc. No. 52) is
GRANTED; it is further
ORDERED that judgment shall enter in favor of the defendant and against the plaintiff
on all claims for relief and causes of action asserted in this case. It is further
ORDERED that the defendant is awarded his costs to be taxed by the Clerk of Court in
the time and manner prescribed by Fed. R. Civ. P. 54(d)(1) and D.C.COLO.LCivR 54.1. It is
further
ORDERED that this, case is CLOSED.
Dated this 13lh day of March, 2020.
BY THE COURT:

Kathleen M Tafoya
United States Magistrate Judge
Plaintiff fails to explain how or why he believes this testimony shows that the defendant did not
check the handcuffs for tightness. Moreover, Defendant indeed testified that he checked for
tightness by inserting his finger between the handcuffs and the Plaintiff’s wrists. (See Resp., Ex.
A at 55,11.8-14.)
-9-

C3

27a
Appendix D
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
ORDER - FINAL JUDGMENT
GRANTING
MOTION FOR SUMMARY JUDGMENT
(March 13, 2020)
(4:40 PM MDT)

Before
Honorable KATHLEEN M. TAFOYA, Magistrate Judge

i

<

Case 1.17-cv-01667-KMT Document 60 Filed 03/13/20 US DC Colorado
Page l of 2
28a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Case No. 17-cv-01667-KMT
RODOLFO RIVERA, JR,
Plaintiff,

v.
OFFICER JOHN GRANILLO/CSPD 3876,
Defendant.

FINAL JUDGMENT
PURSUANT to and in accordance with Fed. R. Civ. P. 58(a) and the Order
entered by the Honorable Magistrate Judge Kathleen M

. Tafoya on March 13, 2020, and

incorporated herein by reference as if fully set forth, it is
ORDERED that Defendant's Motion for Summary Judgment is GRANTED

. It is

FURTHER ORDERED that final judgment is hereby entered in favor of
Defendant, Officer John Granillo, and against Plaintiff, Rodolfo Rivera Jr.
claims for relief and causes of action asserted in this

on all

case, ft is

FURTHER ORDERED that Defendant, Officer John Granillo, shall have its
by the filing of a Bill of Costs with the Clerk of this Court within fourtee
entry of judgment.

costs

n days of the

Case l:17-cv-01667-KMT Document 60
<

,t

Filed 03/13/20 USDC Colorado Page 2 Of 2

29a
DATED this 13th day of March, 2020

FOR THE COURT:
JEFFREY P. COLWELL, CLERK
s/ K. Senamontrv
Deputy Clerk

2

i

i

31a

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

March 3, 2021
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,
v.

No. 20-1133
(D.C. No. 1:17-CV-01667-KMT)
(D. Colo.)

OFFICER JOHN GRANILLO, CSPD
3876,
Defendant - Appellee.

ORDER

This matter is before the court on the appellant’s motion for extension of time to
file petition for rehearing. The motion is granted. Appellant’s petition shall be filed on or
before March 19, 2021. No further extensions will be granted under the clerk’s authority.
Entered for the Court

CITRISTOPHER M. WOLPERT, Clerk

J

It

< '*

32a
Appendix F
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

Case No. 20-1133, (D.C. No. l:17-CV-01667-KMT)(D.Colo.)
ORDER
GRANTING
EXTENSION OF TIME TO FILE REPLY BEIEF
(July 10, 2020)

Christopher M. Wolpert, Clerk

J

». I '

33a

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

July 10, 2020
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,
v.

No. 20-1133
(D.C. No. 1:17-CV-01667-KMT)
(D. Colo.)

OFFICER JOHN GRANILLO, CSPD
3876, '
Defendant - Appellee.

ORDER

This matter is before the court on appellant’s motion for extension of time to file a
reply brief in this appeal. The motion is granted. The reply brief shall be filed and
served on or before July 20, 2020.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

J

* '
*■

(

*
i

'*

34a
Appendix G
UNITED STATES COURTS OF APPEALS
FOR THE TENTH CIRCUIT

Case No. 20-1133, (D.C. No. l:17-CV-01667-KMT)(D.Colo.)
ORDER
DENYING
STAY
BILL OF COST
(July 24, 2020)

Before
Christopher M. Wolpert, Clerk

A

* ' '* »
i

i ?

C

35a

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

July 24, 2020
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,
v.

No. 20-1133
(D.C.No. 1:17-CV-01667-KMT)
(D. Colo.)

OFFICER JOHN GRANILLO, CSPD
3876,
Defendant - Appellee.

ORDER

Before HARTZ and HOLMES, Circuit Judges.

Appellant Rodolfo Rivera, Jr., seeks a stay of proceedings in the district court on
the defendant-appellee’s bill of costs until the conclusion of this appeal. Though
ostensibly filed as a “Writ of Mandamus,” we construe his filing as a motion for stay
pending appeal under Federal Rule of Appellate Procedure 8 because that is the relief he
seeks. We therefore consider (1) whether Mr. Rivera has made a strong showing that he
will likely succeed on the merits of his appeal; (2) whether he will suffer irreparable
injury absent a stay; (3) whether a stay will substantially injure the other parties interested
in the proceeding; and (4) where the public interest lies. See Nken v. Holder, 556 U.S.
418, 434 (2009). Mr. Rivera bears the burden to show that the circumstances justify a
stay. See id. at 433-34.

i

<i < i» V

36a
Having considered Mr. Rivera’s motion, the defendant-appellee’s response, and
Mr. Rivera’s reply, we conclude that he has not made the showing necessary to obtain a
stay pending appeal.1 We therefore deny his motion.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

i

To the extent he seeks mandamus relief, Mr. Rivera has not shown he is entitled
to that relief either. See United States v. Copar Pumice Co. , 714 F.3d 1197, 1210
(10th Cir. 2013).
2

Appellate Case: 20-1133

Document: 010110503249

Date Filed: 04/05/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal:
Tenth Circuit

FOR THE TENTH CIRCUIT

April 5, 2021
Christopher M. Wolpert
Clerk of Court

RODOLFO RIVERA, JR.,
Plaintiff - Appellant,

No. 20-1133
(D.C. No. 1:17-CV-01667-KMT)
(D. Colo.)

v.

OFFICER JOHN GRANILLO, CSPD
3876,
Defendant - Appellee.

ORDER

Before MATHESON, BALDOCK, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

